                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 105080045                                                                       Page 1 of 1



         We were invited to join an ongoing case by a DO] attorney.l Specifically, while working
         on a settlement with another federal agency,2 he became aware that some state3
         universities may have been double charging sick, annual, and terminal leave to the federal
         govemment. 4 Our initial investigation determined that only one university5 appeared to
         be double charging leave to NSF awards.

         After an extensive investigation, we determined that, although the university may have
         been double charging NSF funds in the past, it would be overly onerous to find out the
         extent to which NSF had been damaged, particularly in light ofthe fact that the statute of
         limitation has run on any civil actions and the university no longer calculates leave in the
         same manner.


                   Accordingly, this case is closed.




         2
         3
         4




NSF DIG Fonn 2 (11/02)
